<html>
<title> - THE STATUS OF NEGOTIATIONS BETWEEN CHINA AND TIBET</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




           THE STATUS OF NEGOTIATIONS BETWEEN CHINA AND TIBET

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, APRIL 6, 2000

                               __________

                           Serial No. 106-137

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-615                    WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS


                 BENJAMIN A. GILMAN, New York, Chairman

WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
    Paul H. Berkowitz, Senior Professional Staff Member and Counsel
                  Nicolle A. Sestric, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Julia V. Taft, U.S. Special Coordinator for Tibetan 
  Issues, Assistant Secretary, Bureau of Populations, Refugees 
  and Migration, U.S. Department of State........................     4
Lodi G. Gyari, Special Envoy, His Holiness The Dalai Lama........    21

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    32
Julia V. Taft....................................................    35
Lodi G. Gyari....................................................    47

Additional material:

Statement of H.H. the Dalai Lama on the 41st Anniversary of the 
  Tibetan National Uprising......................................    43
Response by Assistant Secretary Taft to additional question 
  submitted by Representative Douglas Bereuter...................    57
Response by Assistant Secretary Taft to additional question 
  submitted by Representative Sam Gejdenson......................    86

 
           THE STATUS OF NEGOTIATIONS BETWEEN CHINA AND TIBET

                              ----------                              


                        THURSDAY, APRIL 6, 2000

                  House of Representatives,
              Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. Committee will come to order. During this 
past year, conditions inside Tibet have been the worst since 
the cultural revolution. Religious freedom in Tibet has been 
increasingly restrictive and political activity has been met 
with swift, certain and severe repercussions. Increased numbers 
of monks, nuns and laypeople are making the dangerous journey 
across the Himalayas to freedom in India. Many of them have 
died along the way. Once they do arrive, they have had to have 
limbs amputated because of frostbite and gangrene. In addition, 
many refugees have been captured by the Chinese military and 
they never resurfaced. Many have been beaten and robbed, 
tortured and imprisoned by the PLA.
    As conditions worsen inside Tibet, the government in 
Beijing fails to recognize the opportunity that His Holiness 
the Dalai Lama represents for a peaceful settlement to the 
problem.
    Instead of accepting the fact that he offers a simple, 
moderate and workable solution to the status of Tibet by his 
willingness to accept Tibetan autonomy within China, the 
Chinese Government falsely accuses him of seeking independence 
and being personally concerned about his own future role in 
Tibet. Beijing has refused to negotiate with His Holiness or 
his representatives, even though he has made it perfectly clear 
that he is not seeking the restoration of Tibet's rightful 
independent status.
    Although we believe that Tibet deserves nothing less than 
the complete restoration of its full independence, we 
reluctantly support His Holiness' efforts for autonomy, and I 
hope that it will help the Tibetan people and their culture to 
survive.
    It is regrettable that the Chinese leaders believe that by 
manipulating the enthronement of a few religious leaders and by 
waiting until His Holiness grows old and dies, that eventually 
they will control Tibet, and then Tibet's international 
support. Such a rationale is illogical and certainly ignores 
reality.
    The ridiculous image of atheists involving themselves in 
appointing religious leaders does not enhance the peace, but it 
is ludicrous and an embarrassment to the Chinese culture that, 
for centuries, deeply respected Buddhist teachings. It is a 
detriment to China's efforts to appear as a legitimate world 
leader and to be taken seriously as partners in bringing about 
peace and stability in Asia or elsewhere. Time is certainly not 
on Beijing's side. Nations around the world do not support the 
Tibetan people because of one man.
    The Tibetan cause enjoys the global support that it does 
because it is a courageous attempt by a Nation and a people who 
are trying to regain what is rightfully theirs by throwing off 
the repression of colonization. It is in the interest of 
international stability to have Tibet once again serve as it 
had for 2000 years as a buffer zone strategically placed 
between India and China.
    It is said that the greatest threat to peace in Asia are 
the tensions between India and Pakistan. However, the source of 
that potentially devastating nuclear war is China's gobbling up 
of Tibet, a vast Nation on India's northern border, that is the 
size of Western Europe and a quarter of China's land mass. Now 
that Beijing shares a long border with India, it tries to keep 
India off balance by transferring nuclear weapons to Pakistan, 
and while Pakistan causes problems on India's Western border, 
China has been currying favor with the Burmese military 
government on India's eastern border by sending them nearly $2 
billion of arms.
    During the Second World War, Burma was called the back door 
to India by both the British and the Japanese. For the past 
three decades, China has steadily increased its political, 
military and economic influence in Burma, and on the southern 
tip of India, China overwhelmingly remains Sri Lanka's main 
supplier of arms.
    In a recently published book entitled War at the Top of the 
World, its author, Eric Margolis, points out:
    Most worrisome to India, though, is the steady increase of 
Chinese military power on the Tibetan plateau which confronts 
India with the specter of simultaneously facing serious 
strategic threats on its western, northern and eastern borders. 
This fear has led Indian strategists and politicians to warn 
that India was being surrounded by a hostile coalition of 
forces directed and armed by China.
    He went on to say, ``By the early 1990's China had deployed 
500,000 soldiers, a quarter of its standing Army, on the 
Tibetan plateau, half of them based on the border between India 
and Tibet, half in central Tibet. Four additional Chinese 
armies, each the equivalent of a 60,000-man army corps, were 
based in areas of China that are geographically suited to 
support operations from Tibet against India by delivering 
flanking attacks or providing follow on reinforcements.''
    Ever since occupying Tibet in 1950, the PLA has worked 
feverishly to build networks of all weather roads, 
crisscrossing Tibet--two other major roads that lead to 
Pakistan and Nepal, which border India. The new road system 
allows China to move large military formations swiftly along 
the entire length of the Indian border, affording Chinese 
generals the ability to concentrate mutually supporting armies 
almost anywhere along the Tibetan frontier. A chain of 
permanent bases, many with huge underground storage sites and 
heavy-fixed fortifications lead to rear echelons by good roads, 
has been extended like a new great wall along the length of the 
border with India.
    The author went on to say that China has constructed 14 
major air bases on the Tibetan Plateau and a score of tactical 
airstrips. These bases give the Chinese Air Force 
unquestionable domination of Tibet's air space, the forward 
edge of battle in the event of war, and the capability, for the 
first time, to fly sustained combat operations over India's 
north and strike all of India's northern cities, including 
Dehli, Bombay and Calcutta. Chinese electronic intelligence 
atop the plateau also confers an important advantage of combat 
information and battle management in any air war.
    The author goes on to conclude:
    ``But of all China's military emplacements on the Tibetan 
plateau, by far, the most alarming to India, is an extensive 
series of missile bases and nuclear installations. At least 25 
medium-range ballistic missiles are based in Tibet, as well as 
a sizable number of shorter range tactical missiles, all 
carrying nuclear warheads. India's heartland and many of its 
major cities are now in range of Chinese missiles.''
    China's dangerous expansion in Tibet and meddling in south 
Asia has brought the region to the brink of a nuclear 
catastrophe.
    The State Department and the Administration have failed to 
understand the dynamics behind all this tension and continues 
to focus on Kashmir, as if it is a localized and isolated 
phenomenon between Pakistan and India, refusing to sanction 
China for violating the Nuclear Non-proliferation Treaty by 
transferring their nuclear material to Pakistan. Instead, the 
Administration has been asking India to forego nuclear arms.
    We have seen no indication by the Administration's 
policymakers that they understand the significance of China's 
occupation of Tibet and how a resolution of that problem could 
defuse the serious tensions in that region.
    We are told that there has been no progress made to ensure 
that China will contemplate negotiating with His Holiness the 
Dalai Lama, or his representatives. Accordingly, we look 
forward to hearing from our witnesses today to learn how this 
situation can be remedied so that a disaster can be diverted 
and how to bring peace to the region.
    I am now pleased to recognize our Ranking Minority Member, 
Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I join with you and 
share those very same concerns. I want to commend the 
Administration. The President and the Vice President have met 
with the Dalai Lama. But all of us are frustrated by the 
continued attempts at cultural genocide that go on by the 
Chinese in Tibet and so many other places. The fact that there 
are still people arrested for simply studying Tibetan culture 
or following Tibetan beliefs and other activities is an affront 
to all of us, and it I think complicates our relationship with 
the mainland Chinese.
    I believe that the whole world--the United States frankly 
is better than most countries, but I don't think we do enough--
I think the entire world needs to step forward and express its 
dismay and outrage at what really has to be said is an attempt 
to just eradicate the Tibetans and their culture and their 
religion, and I look forward to hearing from the witnesses 
today.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I am anxious to hear 
from Ms. Taft. I have no questions or comments.
    Chairman Gilman. Thank you very much, Mr. Bereuter. We 
welcome Julia Taft, who is the special coordinator for Tibetan 
issues, to our House International Relations Committee. Ms. 
Taft was nominated as assistant secretary of the Bureau of 
Population, Refugees and Migration back in September 1997 and 
has been a leading authority on refugee and humanitarian 
affairs, held a number of senior positions in both government 
and the private sector. She was president and CEO of 
interaction, an American council for voluntary international 
action, and a coalition of a number of U.S.-based private 
voluntary organizations.
    The refugee resettlement program which Ms. Taft has 
directed has brought more than 130 thousand Indochinese into 
our Nation. We welcome assistant Secretary Julia Taft. You may 
put your full statement in the record and summarize or 
whichever way you deem appropriate. Thank you.

    STATEMENT OF THE HONORABLE JULIA V. TAFT, U.S. SPECIAL 
COORDINATOR FOR TIBETAN ISSUES, ASSISTANT SECRETARY, BUREAU OF 
  POPULATION, REFUGEES AND MIGRATION, U.S. DEPARTMENT OF STATE

    Ms. Taft. Thank you very much, sir. I am delighted to be 
here, my second opportunity to testify on the issues of Tibet. 
I was appointed just a little over a year ago and have had, 
since that time, two real policy goals. The first has been to 
try to promote a substantive dialogue between the Chinese 
Government and the Dalai Lama and his representatives, and 
second, to try to find ways to sustain Tibet's unique 
religious, linguistic and cultural heritage.
    Mr. Chairman, as you and your colleagues know, disputes 
over Tibet's relations with the Chinese government have had a 
long and complex history. Recognizing that this is your third 
hearing on Tibet, I do not propose to summarize again that 
history. Instead, I would rather talk about the current 
circumstances in Tibet, talk a little bit about the 
developments over the past year and what I have been doing 
since my appointment.
    As the Department of State's human rights report on China 
for 1999 makes clear, tight controls on religion and other 
fundamental freedoms continued and intensified during a year in 
which there were very many sensitive anniversaries and events. 
This year's report documents in detail the widespread human 
rights and religious freedom abuses which you noted in your 
opening statement.
    Besides instances of arbitrary arrests, detention without 
public trial and torture in prison, there also has been an 
intensification of controls over Tibetan monasteries and on the 
monks and nuns. Religious activities have been severely 
disrupted throughout the continuation of the government's 
patriotic education campaign that aims to expel supporters of 
the Dalai Lama from the monasteries and views the monasteries 
as a focus of antiChina separatist activity.
    2905 Tibetans left Tibet last year, approximately a third 
of whom escaped these campaigns and sought to receive religious 
teachings in India. In fact, two of Tibet's most prominent 
religious figures have left Tibet during the past 18 months 
reportedly for these reasons. One was the recent departure of 
the 14-year old Karmapa, leader of the Kagyu sect and the third 
most revered leader in Tibetan Buddhism. He actually arrived in 
Dehli the day before I arrived and that was quite an 
interesting experience to be in India at the same time he had 
arrived.
    The second major religious leader that left Tibet was the 
Agya Rinpoche, who was the former abbot of Kumbum monastery. He 
was a senior Tibetan religious figure and an official at the 
deputy minister level. He left China in November 1998, and he 
is now in the United States. The reasons for his departure were 
also related to increased government pressure on the monastery, 
his monastery Kumbum, which included the stationing of 45 
government officials there, imposition of patriotic re-
education and a heightened role demanded of him by authorities 
that he recognize the Chinese designated Panchen Lama, Ghaltsen 
Norbu. He did not accept those conditions and left China.
    Although China has devoted substantial economic resources 
to Tibet over the past 20 years, it remains China's poorest 
region. Language problems severely limit educational 
opportunities for Tibetan students, and illiteracy rates are 
said to be rising sharply. The average life span of Tibetans is 
reportedly dropping, infant mortality is climbing and most 
nonurban children are reportedly malnourished.
    Recent reports suggest that the privatization of health 
care, increased emphasis on Chinese language curriculum and the 
continuing Han migration into Tibet are all weakening the 
social and economic position of Tibet's indigenous population. 
Lacking the skills to compete with Han laborers, the ethnic 
Tibetans are not participating in the region's economic boom. 
In fact, rapid economic growth and expanding tourism and the 
introduction of more modern cultural influences have also 
disrupted the traditional living patterns and customs and have 
caused environmental problems all have really threatened the 
traditional Tibetan culture.
    In Lhasa, the capital of the Tibetan autonomous region, the 
Chinese cultural presence is most obvious and widespread. I am 
sure your staffers who will be going there later this month 
will see that there is widespread Chinese architectural 
infusions in buildings. The Chinese language is widely spoken 
and this is all the result of large numbers of ethnic Han 
Chinese who have gone for economic assistance and incentives in 
the region. Some observers estimate the nonTibetan population 
of the city to be roughly 90 percent. The Chinese say it is 
only five percent, but then they don't add in the number of 
temporary Han residents, which include the military and the 
paramilitary troops and all of their dependents. So we are 
looking at a capital of Tibet----
    Mr. Gejdenson. Could you go through those numbers again 
because you said your estimate was 90 and that the government's 
was only five.
    Ms. Taft. No, thank you for asking for clarification. There 
are some observers who estimate that the nonTibetan population 
of Lhasa is roughly 90 percent. The government has said just 
the opposite. They say 95 percent of the population is actually 
Tibetan, but what they don't calculate in there is the huge 
number of military and paramilitary with their dependents. So 
if you add those into it, we believe that the ninety percent 
nonTibetan is about the right estimate.
    Mr. Bereuter. Would the gentleman yield for another 
question? The first figure is for Lhasa and the second figure 
is for Tibet? Is that correct?
    Ms. Taft. No. They are both for Lhasa.
    Mr. Bereuter. Thank you.
    Ms. Taft. Reports indicate that increased economic 
development combined with the influx of migrants has 
contributed to an increase of prostitution in the region. We 
are very concerned about that obviously, particularly because 
the prostitution reportedly occurs in sites owned by the party 
or the government under military protection. The incidence of 
HIV among prostitutes in Tibet is unknown, but is believed to 
be relatively high.
    Because of the deterioration of the Chinese Government's 
human rights record, the U.S. Government announced on January 
12 our intention to introduce a resolution focusing 
international attention on China's human rights record at this 
session of the United Nation's Commission on Human Rights in 
Geneva. We are working very hard with other nations to defeat 
China's anticipated no action motion and to pass the 
resolution. I was just in Geneva working on this last week and 
we hope that we will be able to get adequate discussion and 
support for our resolution.
    Our criticism of China's human rights practices reflects 
core values of the American people and widely shared 
international norms: freedom of religion, conscience, 
expression, association and assembly. These rights are 
enshrined in international human rights instruments, including 
the international covenant on civil and political rights, which 
China has signed but has not ratified nor implemented.
    In addition to utilizing multilateral human rights fora, 
President Clinton and Secretary Albright have continued to use 
every available opportunity to urge the Chinese leadership to 
enter into a substantive dialogue with the Dalai Lama or his 
representatives. As you know, President Jiang Zemin indicated 
to President Clinton during their June 1998 summit in Beijing 
that he would be willing to engage in such a dialogue if the 
Dalai Lama affirmed that Tibet and Taiwan are part of China. 
Despite our repeated efforts throughout the year to foster such 
a dialogue and the willingness expressed by the Dalai Lama, the 
Chinese leadership has not followed up on Jiang's remarks to 
the President. There is no dialogue and it doesn't look as 
though the prospects are very good. Nevertheless, we remain 
committed to implementing our vigorous advocacy on this and to 
try to build on the Dalai Lama's real resolve and willingness 
to engage with the Chinese.
    We have also continued to raise individual cases of 
concern. Most notable is the issue of welfare and whereabouts 
of Gendhun Cheokyi Nyima, the Panchen Lama designated by the 
Dalai Lama. He and his parents have been held incommunicado now 
for nearly 5 years. On April the 10th, he will have his 11th 
birthday.
    Last year we received disturbing and unconfirmed reports 
that the boy had died in Gansu province and that he was 
cremated in secrecy. Our embassy in Beijing made formal 
representations expressing concern about his whereabouts and 
his welfare. Although the reports of his death were 
unsubstantiated and thought to be untrue by the Tibetan exile 
community, the U.S. Administration publicly urged the Chinese 
Government to address continuing concerns of the international 
community about the safety and well-being of the child and 
demanded that the child and his family be able to be received 
by credible international visitors and to be returned home 
freely. To this day we have gotten no satisfaction from the 
Chinese Government, and they have refused to allow direct 
confirmation of his well-being.
    In response to an inquiry from Congress, the Chinese 
Government acknowledged the whereabouts and earlier ill health 
of Ngawang Choephel, the Tibetan ethnomusicologist and former 
Middlebury College Fulbright scholar, who was incarcerated in 
1996 and is now serving an 18-year sentence on charges of 
subversion. We have repeatedly urged the Chinese Government to 
allow his mother to visit him during his incarceration. It is 
her right under Chinese prison law, and it has not been 
granted. We did find out he was ill and we said not only should 
his mother be allowed to visit him, but also that he should be 
released immediately on medical grounds as a humanitarian 
gesture. He has not been released, and I think they are 
intending to keep him incarcerated until 2013.
    Over the past year I have made a point to learn as much as 
I can about Tibetan issues so that I can ensure the effective 
presentation of these issues in our U.S.-China bilateral 
discussions. I have maintained close contact with the Dalai 
Lama's special envoy to Washington, Lodi Gyari, and I have 
requested meetings with the Chinese Ambassador. However, I have 
never once been granted a meeting. I am hopeful that this year 
I will be able to sit down with the Ambassador and discuss the 
Chinese Government's views on the social, political and 
economic issues related to Tibet.
    I have met with scores of people from many countries 
sympathetic to the Tibetan issues, government officials, people 
from foundations and academia, experts in U.S.-China relations 
and NGO officials. There is a huge constituency out there, 
informed, committed, wanting to be of assistance to the Tibetan 
people.
    As I am the only special coordinator for Tibetan issues in 
the world, I get lonesome at times. We have been working 
actively with many other countries to see if they, too, would 
designate coordinators on the Tibetan issues so we can build a 
network and share information and strategies. In fact, last 
week I just returned from Brussels, where the European 
Parliament held an all-party parliamentarian session on Tibet 
to discuss multilateral efforts and how we can best coordinate 
future strategies. Coming out of that all parliamentary meeting 
was not only a call on the part of the EU and host governments 
to establish focal points on Tibet, but also to endorse the 
U.S. resolution on China.
    In January, I visited Dharamsala, India, in my capacity as 
assistant Secretary for population, refugees and migration. I 
was there to evaluate the $2 million of assistance programs 
that we fund for Tibet and the refugees.
    It was a wonderful experience. You have been there Mr. 
Chairman, to be able to meet the Tibetans in exile and the 
central Tibetan administration. I was also overwhelmed by the 
tremendous community that is out there and especially the 
spirit of the younger generation. One of the things that was 
particularly striking was to learn that nearly the entire 
Central Tibetan Administration is made up of Fulbright 
scholars. These bright young adults undoubtedly had many more 
lucrative opportunities to work in the States or Europe or 
India, but 96 percent of them have returned to Tibetan 
settlements to make their talents available to the CTA. Equally 
impressive is how traditional Tibetan culture is integrated 
into the daily life.
    I went to Nepal in November to meet the new arrivals that 
had just come over from Tibet. They were all traumatized. They 
were sick. They had suffered such a hardship and I was very 
anxious on my trip in January in Dharmasala to see the next 
stage of their reception because this is something that the 
U.S. Government also funds, not only the reception center in 
Nepal, but also the one in India. During the visit, there were 
hundreds of refugees. They were quiet, but they at least were 
animated. They looked healthy. They were optimistic about their 
new experiences and being safely in India. Many were wearing 
the new shoes and dark pants they had received at the reception 
center in Kathmandu. I think the funds that we are able to 
provide, thanks to congressional appropriations, does bring 
them not only food and clothing and income-generating projects, 
it also brings them hope. I am also exploring ways that 
foundations and NGO's can expand their support for these people 
who have arrived in India.
    I have met twice with the Dalai Lama over the past year and 
look forward to seeing him this summer when he comes to 
Washington for the Smithsonian Folk Life Festival. During the 
meetings I have had with him, he has reiterated his concern 
about the marginalization of the Tibetan people living in Tibet 
and requested that I devote attention to finding ways to 
improve the lives of those who are there, particularly through 
culturally sustainable enterprises. We will use well the 
million dollars that Congress has appropriated for activities 
to preserve cultural traditions and promote sustainable 
development and the environmental conservation in Tibet.
    I will be prepared to answer questions that you have about 
that, but you have before you a congressional notification in 
which $750,000 would be given to the Bridge Fund for several 
agricultural and microcredit initiatives and the remaining 
$250,000 would be made available for other qualifying NGO's.
    In conclusion, I want to say that the treatment of Tibetans 
by the Chinese Government over the past 50 years has been 
inconsistent with international norms and standards of respect 
for fundamental human rights. His Holiness has shown enormous 
courage in accepting the impracticality of insisting on 
independence for Tibet and has instead called for genuine 
autonomy within Chinese sovereignty. Chinese spokesmen have 
responded by stating their willingness to engage in a dialogue 
with the Dalai Lama if he renounces independence and 
proindependence activities. He has done so. The dialogue should 
proceed.
    We also believe that there is significant Chinese interest 
that could be advanced in moving forward on Tibetan autonomy. 
The Dalai Lama is still active and healthy. His prestige will 
be crucial in carrying the opinion of the Diaspora and most 
Tibetans in the autonomous regions. Only he can ensure the 
successful and peaceful implementation of a negotiated 
settlement.
    Conversely, maintaining order over an unhappy population is 
a drain on the resources of China which is still a developing 
country. Widespread knowledge of China's human rights offenses 
in Tibet has brought about pressure on China's leadership to 
explain its Tibet policy to the international community. My 
impression is that the situation in Tibet deeply troubles 
China's international partners and foreign leaders and that 
this is affecting diplomatic engagement between China and 
Western countries.
    It is my sincere hope that this year will bring about a 
dialogue that we can all hope will mean new life and a return 
of the Tibetans in exile to an autonomous Tibet in China.
    With those opening comments, let me thank you again, sir, 
for having me. I look forward to answering any questions you 
all might have. Thank you.
    [The prepared statement of Ms. Taft appears in the 
appendix.]
    Chairman Gilman. Thank you, Secretary Taft, and we 
appreciate your extensive review of the situation.
    Secretary Taft, when the importance of negotiations between 
Beijing and His Holiness and his representatives is discussed 
within the Administration, is it ever spoken of in terms of 
helping to defuse tensions in south Asia? Does the 
Administration take the view that the pressure India confronts 
from Chinese nuclear weaponry in Pakistan is related to China's 
occupation of Tibet? Is Tibet only perceived to be a human 
rights and cultural issue?
    Ms. Taft. I would like to have a more full answer provided 
to you by our assistant Secretary for south Asia, Karl 
Inderfurth, and I will get that. I must say that the dealings 
that I have on the Tibet issue are mostly on the human rights, 
the cultural preservation and the moral question. The nuclear 
perspective, and the military perspective are not ones in which 
I have been involved. I am sure there are very perhaps closely 
held discussions about that, but the Tibet issue did come up 
during President Clinton's visit to India, and I will get a 
confidential report to you on the nature of that.
    Chairman Gilman. If you could forward it to our Committee, 
we would like to distribute it to our Members. You mentioned in 
your testimony that you had made a request to meet with the 
Chinese Ambassador, and you have been denied that opportunity; 
is that correct?
    Ms. Taft. That is correct, several times.
    Chairman Gilman. When was the date of the latest request 
just approximately?
    Ms. Taft. Was February the time--in February.
    Chairman Gilman. How many times had you made an appeal?
    Ms. Taft. The first time I requested it was right after we 
had our hearing last year, and you said go ask for it, and I 
went and asked for it. It took several weeks before even an aid 
would call back my assistant on this. We have had the State 
Department ask for it. Susan Shirk has asked for it, several 
Senators have asked for it, and we have also put it in writing 
six times.
    Chairman Gilman. What is the response? No response?
    Ms. Taft. No response. When I asked for my visa to go visit 
China, we did get a response.
    Chairman Gilman. They allowed you to do that?
    Ms. Taft. No, sir.
    Chairman Gilman. They denied you.
    Ms. Taft. They said the timing was not convenient.
    Chairman Gilman. I am going to ask my staff to put a letter 
together and ask my colleagues who may want to join us in 
criticizing and objecting to the People's Republic of China 
denying a leading official of our State Department the 
opportunity to at least sit and talk about the problem and 
denying you access to China. So I am going to make certain that 
we do that.
    You mentioned the congressional notification for the Bridge 
Fund and some other programs. It was our understanding that all 
of those funds were to go to the Bridge Fund. Why was the 
decision made not to make all of the funds available to the 
Bridge Fund, and could you explain that Bridge Fund a little 
more for us, Madam Secretary?
    Ms. Taft. I would be delighted to. The Bridge Fund is a 
wonderful enterprise. It has been working for several years in 
the Tibetan region doing microenterprise activities, 
agricultural enhancements, juice factories, a yak wool 
production, and they have a very solid base there. Last year 
Congress earmarked money for the first time, a million dollars 
for programs in China, and when we read the legislation, I will 
repeat it here because I know this is of concern, it said--``. 
. . $1 million shall be made available to nongovernmental 
organizations located outside of the People's Republic of China 
to support activities which preserve the cultural traditions 
and promote sustainable development and environmental 
conservation in Tibetan communities in that country.''
    There also is, later in the text, a reference to the Bridge 
Fund. When we were trying to figure out what to do with this, 
we were a little stymied with the reference to making the funds 
available to nongovernmental organizations. The Bridge Fund was 
not written into the legislation per se. For this reason, I 
wanted to get the money out as quickly as possible because 
there are some very time-sensitive projects for the spring that 
are necessary. I thought what we should do is, as we did in the 
CN, allocate three quarters of it to the Bridge Fund 
immediately, and then see if there were other NGO's that would 
be available.
    If it is the sense of this Committee that all of it should 
go to the Bridge Fund, please indicate that to us. We will be 
glad to do that. I have not had any other organizations come 
forward requesting money. So my sense is that if we don't hear 
in a couple of months from any other qualifying NGO's, the 
balance should go to the Bridge Fund. But I am--it is your 
earmark. Whatever guidance you have on this we would welcome.
    Chairman Gilman. Madam Secretary, has the Administration 
made any progress in helping to arrange for a meeting between 
the People's Republic of China, their officials and Tibetan 
officials?
    Ms. Taft. We have made no progress, but at every single 
bilateral meeting, every trip that any official takes to China 
it is on the agenda. It is discussed, and China keeps saying 
now is not the right time or that His Holiness is not willing 
to engage. I think Mr. Gyari will have some more specifics 
about this, but it is a very, very frustrating time for us 
because there was so much optimism in 1998. Last year, however, 
there were so many sensitive anniversaries with the 40 years 
since the Dalai Lama left. China had the Tiannamen Square 10-
year anniversary. There was the bombing of the Chinese Embassy 
in Belgrade, and it was not a good year. So I am hoping that is 
all behind us and that this year 2000 will be more optimistic. 
It really is in China's interest to launch this dialogue, and 
yet the ball is in their court.
    Chairman Gilman. When you are urging your colleagues in the 
Administration to help you bring the Chinese and Tibetans 
together for negotiations, do you point out that a resolution 
to the Tibetan problem would help stabilize the region?
    Ms. Taft. Absolutely, absolutely.
    Chairman Gilman. We want to thank you for your continued 
efforts on behalf of Tibet. I wish more nations would appoint a 
similar official as yourself so you wouldn't be a lonely 
advocate in global meetings.
    Ms. Taft. I feel like the Maytag repairman waiting for the 
phone to ring, but I think they will. We are very much looking 
forward to expanding our network, particularly with the 
European countries.
    Chairman Gilman. Thank you.
    Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. Madam Secretary, good 
morning.
    Ms. Taft. Good morning.
    Mr. Rothman. Mr. Chairman, I want to begin by thanking you 
and Ranking Member Gejdenson for holding this hearing today, 
and I would also like to acknowledge and thank Assistant 
Secretary Taft for her work as Special Coordinator for Tibetan 
Issues. Welcome to the Committee.
    Mr. Chairman, the tragic occupation of Tibet gets to the 
heart of why the defense of human rights around the globe is so 
important, not only to Members of Congress, but to the American 
people. As I wrote to President Clinton just last week, I 
consider what the Chinese authorities have done and are 
presently doing in Tibet, their efforts to erase all traces of 
Tibetan culture to be a crime against humanity, and that is why 
I am pleased that the United States has introduced a resolution 
on China's human rights practices at the 56th session of the 
U.N. Commission on Human Rights that is presently meeting in 
Geneva, Switzerland. I believe our Nation has a moral 
responsibility to actively secure support for that resolution 
at the U.N. Commission on Human Rights and to ensure its 
passage.
    It is my understanding, Madam Secretary, that last year 
many of our closest European partners voted against a 
resolution censuring China's human rights record. If that is 
so, at the end of my question I would be interested in your 
comments about that. Clearly China's efforts this year to 
thwart the passage of our resolution citing its poor human 
rights record cannot be justified. I urge you Madam Secretary 
to ensure that our Nation's representatives in Geneva serve 
notice to our allies in Europe and elsewhere that China's 
oppressive rule over Tibet has not gone unnoticed by the 
American people and that it is of grave concern to the American 
people and jeopardizes any semblance of a normal relationship 
between the people of America and the people of China. It would 
be a shame and a setback to the cause of human rights in China 
for our resolution in Geneva to fail, due to a lack of support 
by America's European allies or anyone else.
    Having said that, Madam Secretary, I would be interested to 
know what efforts are presently being made by our 
Administration to ensure passage of our resolution in Geneva.
    Ms. Taft. Thank you for your support of the resolution and 
support of our various initiatives. There are two steps that we 
have to go through to get the resolution discussed and 
hopefully passed. The first is even getting it considered. Last 
year when we introduced our resolution, we did not get but one 
or two countries to cosponsor it, and if you don't get a large 
number of countries to cosponsor, then the first hurdle of 
whether the resolution can even be discussed is in jeopardy.
    Last year when China tried to prevent any discussion of the 
resolution and there was a vote on whether or not the 
resolution could be tabled for discussion, the Europeans voted 
along with us to oppose the Chinese blockage of that. But we 
didn't have enough votes, and so therefore China prevailed in 
having our resolution be just disregarded. So there never was 
discussion of it. Many of the Europeans told us last year that 
the reason they didn't cosponsor it and get a surge of support 
at the beginning was because we introduced it or we indicated 
we were going to introduce a resolution too late.
    That is why this year we had 3 months lead time. We did it 
in January and we sent it to all of the capitals of Europe to 
ask them to cosponsor. We have followed that up with demarches. 
When we thought the demarches weren't strong enough we 
escalated them. We would get the Ambassador to go in, we had 
the Secretary making calls. We want right now cosponsors of the 
resolution so that we will be able to win on the no motion that 
China has promised they are going to introduce.
    If China succeeds in not allowing this resolution to even 
be discussed, our feeling is that it is a great disservice to 
the whole Commission on Human Rights because where in the world 
should you be discussing human rights if not at the U.N. 
Commission on Human Rights? China is the only country that has 
ever tried to block discussion of its human rights record at 
the Human Rights Commission. They said to us last week that 
they were going to fight us to the end. We are now busily 
trying to get every member of the Commission to agree that that 
is not fair, and to support us against the ``no motion.''
    We have yet to receive any cosponsors of our resolution but 
we are working on this really hard. The Secretary personally 
went to Geneva to urge support. We have been making very high 
level calls. I have been spending a lot of time. Harold Koh, 
our assistant Secretary for human rights, has been in Geneva 
for a couple of weeks. You are right, it ought to pass.
    Mr. Rothman. I ask unanimous consent for 10 more seconds.
    Chairman Gilman. Without objection.
    Mr. Rothman. Madam Secretary, may I just say thank you for 
your efforts, and if members of this body can assist the 
Administration by putting together letters signed by numerous 
Members of Congress, we would be happy to help.
    Ms. Taft. Thank you. The Chairman has already helped in one 
of the countries, and we are very appreciative of that, and we 
will give you a call. We will need your help.
    Mr. Rothman. Thank you, Mr. Chairman.
    Chairman Gilman. Ms. Secretary, I want you to know that 
many of our Members are calling on the embassies, urging them 
to oppose the no-motion resolution. I urge my colleagues, if 
you haven't, pick up the list from both our side of the aisle 
and minority side of the aisle to make some calls.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. Mr. Salmon has a 
mark-up, and I have to speak on the floor right now. I will be 
pleased to split my time with him. Let him ask the first 
question, and I will have the second half.
    Chairman Gilman. Without objection, Mr. Salmon.
    Mr. Salmon. Thank you. I won't take long because I have to 
run for a vote. It is a crazy life around here. I appreciate 
you being here today. In regard to international relations with 
China, I think this and Taiwan are the two single biggest 
issues that we will have to deal with, and I just wanted to say 
for the record that I was privileged about a year ago to go to 
Tibet to meet with His Holiness the Dalai Lama, and to speak 
about this very issue.
    My mission was threefold. No. 1, I went to ask for the 
release of Ngawang Choephel, and if not his release, that his 
mother visit him. The first issue was actually the dialogue 
with the Dalai Lama. The second issue was Ngawang Choephel. The 
third was to ask for the release of other prisoners the State 
Department believes are either political or religious 
prisoners.
    I felt that the meetings with His Holiness as well as with 
other officials in China was very productive, but as we know, 
they operate in thousands of years cycles and not in the kinds 
of cycles we operate in. It is very frustrating sometimes.
    I also led a delegation at the behest of Chairman Gilman to 
Beijing about 2 months ago with six Congressmen, and we met 
with President Jiang Zemin. It was the first issue I raised. We 
would like you to start a dialogue with His Holiness the Dalai 
Lama, and move toward a resolution of the Tibet issue. We 
didn't get immediate results on that.
    But the second issue that we raised was the release of Sun 
Yun Yee, the political prisoner. We all know the story. I was 
really pleased that a week from that I got a call from the 
Ambassador, both Ambassadors, our Ambassador and the Ambassador 
of China saying, as a result of your efforts, we are releasing 
Sun Yun Yee, which was very pleasing. We are still waiting for 
an answer on dialogue with the Dalai Lama.
    But I have introduced House Resolution 389, which requests 
or expresses a sense of Congress that we would like to a see 
formal dialogue between His Holiness. I know that there are 
problems with bits of the language from the State Department in 
our resolution. I know that there is all kinds of politics 
going on all over the place. But ultimately, let us put 
everything behind us. We are willing to work with anybody and 
everybody. We are willing to work with the State Department. We 
are willing to work with anybody on this Committee, but at the 
end of the day we would like to see a resolution from the 
Congress that says we would like to see a dialogue between His 
Holiness the Dalai Lama and President Jiang Zemin. I would 
appreciate any help you could give me. Thank you.
    Mr. Bereuter. Ms. Secretary, reclaiming my time or I will 
be out of time. I am sure your comments will get to Mr. Salmon. 
Madam Secretary, on the bottom of page two and three in your 
testimony, we still have the contrast in the language with what 
you told me. Please reconfirm and clarify which is true with 
respect to the population--the Han population of Lhasa versus 
Tibet.
    On page 5, Madam Secretary, you have mentioned the all-
party parliamentary session on Tibet at the European 
Parliament. I am very interested in that session. I would like, 
if you would, give us all documents that you were given there, 
and we would have a chance to submit them for the record. I 
would ask unanimous consent Mr. Chairman to include them in our 
hearing record.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Madam Secretary, concluding my time, if you 
would like to respond to Mr. Salmon for the record here and 
tell me what you got out of this all-parliamentary meeting as 
briefly as you can, I would appreciate it. Thank you.
    [The statement appears in the appendix.]
    Ms. Taft. We will get all the documents that came out of 
that. One of the things that I sensed from the parliamentary 
meeting in Brussels was a lot of frustration. Many of the 
parliaments have Tibet support group. Even France has about 124 
members of its parliament which are part of their Tibet support 
group. But all parliaments are having a great deal of trouble 
getting their governments to do things like sign on to the 
human rights resolution that we have before Geneva right now. 
What we were trying to figure out is how do we make sure we are 
all sending the same message. There were two staffers from 
Congress, Mr. Berkowitz and Mr. Rees who attended as well, to 
show solidarity. We urged that our messages to China are the 
same, let us make sure that whenever there are high level 
meetings by our Presidents or our heads of State with the 
Chinese authorities, they should all promote the issue of the 
dialogue. They should all include the issue of human rights, 
not just economic discussions or bilateral discussions that 
don't deal with Tibet.
    In Brussels, we did have solidarity. There was a resolution 
that was issued as a result of it and some very moving 
commentary by Kalon Tethong, who is from the government in 
exile, Mr. Gyari, Richard Gere, a number of other speakers.
    But I want to jump very quickly to what also happened in 
Geneva, because I was so moved by an NGO meeting where, in a 
packed room of about 350 people, the Tibetan community and some 
Chinese dissidents were speaking on the issue of the China 
resolution and on Tibet. The point came up that many of the 
European countries were nervous about cosponsoring the U.S. 
proposed resolution on China because they did not want to 
disrupt their bilateral human rights dialogues with China. As 
you know, several countries, as well as the EU, maintain an 
annual or semiannual human rights meeting or dialogue. We have 
one, too, but it is moribund now as of last year.
    In response to that concern, one of the Chinese dissidents 
said, and I will never forget it, he said, ``you know, it is 
interesting that so many countries want their bilateral 
dialogue not disrupted with China. It is good to have a 
dialogue on human rights with China. It is good for these 
countries to have their dialogue, but the real dialogue China 
ought to have is the dialogue with their own people.'' That is 
what we are promoting in the dialogue with Tibet. Ironically 
that is what the Chinese are saying about Taiwan. They want a 
dialogue with Taiwan. We all want a dialogue on Tibet, and your 
support I really welcome.
    Mr. Bereuter. Thank you.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Do we know what--I 
am going to mispronounce this--Ngawang Choephel, who is an 
ethnomusicologist, do you know his status at the moment?
    Ms. Taft. He is in prison. He is sick. He has had 
hepatitis.
    Mr. Gejdenson. What is he accused of doing besides spying? 
What is the specific charge, do you know? If you don't know you 
can get it to me later.
    Ms. Taft. I will get it to you. It is a spy charge.
    [The statement appears in the appendix.]
    Mr. Gejdenson. How many prisoners are there in Tibet?
    Ms. Taft. I don't know. We have asked that the 
international Committee for the Red Cross be allowed to make 
prison visits.
    Mr. Gejdenson. They have been denied?
    Ms. Taft. They have been denied.
    Mr. Gejdenson. Are there many buddist monks and nuns who 
have been thrown in jail?
    Ms. Taft. There are some in jail but many of them flee and 
go into India.
    Mr. Gejdenson. But there are many in jail?
    Ms. Taft. Yes, sir.
    Mr. Gejdenson. Now when the Soviet Union was in existence 
and the Soviet government was putting Jews and others in jail 
for religious beliefs, the United States responded with Jackson 
Vanik; is that correct?
    Ms. Taft. That is correct.
    Mr. Gejdenson. Our response today is that we have a free 
trade agreement before the Congress in May.
    Ms. Taft. Yes.
    Mr. Gejdenson. Can you explain the evolution of thinking 
there?
    Ms. Taft. I think that we have to keep in mind that our 
relationship with China is very, very complicated and 
multifaceted. We have already heard a number of issues that 
deal with nuclear weapons, WTO, human rights, but I want to 
say, sir, is that our objective is to try to have as much 
relationship with the people of China, and with the Chinese 
authorities on a variety of issues, on health issues, on 
scientific issues, on military issues. Regarding WTO and trade, 
it is really important that we get our businessmen also to have 
a dialogue with China on issues like human rights and also to 
be accountable for Chinese behavior on trade issues. So I don't 
see it as competing. I see it as complementary.
    Mr. Gejdenson. You have done a great job defending the 
Administration's approach. I want to commend you. I understand 
the complexities here as well, I think, but I think that what 
we have seen in the last several years is frankly a worsening 
of the Chinese Government's reactions to the Tibetans, to 
people who want to e-mail something to somebody, to almost--to 
exercise clubs that seem to threaten the central government. I 
am not against contact.
    I am for trade. I think we ought to get more of the trade 
than we have been getting and all those things, but I do think 
the Chinese look at us and say that we are kind of in this 
intellectual exercise when we deal with Tibetan rights and 
human rights and other things, but it is really 
inconsequential, and not just the United States. I think 
frankly the United States is the strongest voice here in a 
world that is silent, that, ignores every outrage in the world 
for an opportunity to do business, and I just think that 
somehow if these were Europeans, the outrage would be greater, 
but there is something about our society that when there are 
human rights abuses in places outside of central Europe, it is 
hard to get the American people excited.
    There is some obviously who care about this in a more 
general sense, but it is hard to get the government excited as 
well, and I think that as people look at the debates that are 
coming ahead, and they are obviously complicated by lots of 
different issues, that if there is a country on earth that has 
a significant number of human rights violations, that seems to 
be going backward, not forwards, on dealing with these issues, 
it is the Chinese Government.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I too had another 
hearing that I was at, but rather than running off to it, I had 
to run back in after I was involved in that hearing in the 
beginning. So I am sorry I missed your opening statement, but I 
have looked through it.
    First, let me ask you, is there evidence that the Communist 
Chinese regime in Beijing is putting weapons systems, missiles 
into Tibet?
    Ms. Taft. That issue came up earlier. I am going to have a 
report shared with the Chairman and the Members on this. That 
is not my brief. I don't get into nuclear weapons but there was 
some discussion. We will share with you what we have.
    Mr. Rohrabacher. We have seen unclassified reports that 
indicate that there are Chinese weapons systems being placed in 
Tibet. So let us go to the other end, what they are placing in 
Tibet are Han Chinese and weapons of mass destruction.
    Ms. Taft. Military personnel.
    Mr. Rohrabacher. Military personnel, and what is leaving 
Tibet is the Tibetan population. There is still an outflow of 
Tibetan people according to your testimony?
    Ms. Taft. Yes, sir.
    Mr. Rohrabacher. The population of Lhasa was?
    Ms. Taft. We were saying that in terms of the statistics, 
we think about 90 percent of the population of Lhasa is Han and 
Hui and only about 10 percent still Tibetan.
    Mr. Rohrabacher. 10 years ago, what was that?
    Ms. Taft. Let me just say at the takeover in 1949--1959, 
100 percent of the people in Lhasa were Tibetans.
    Mr. Rohrabacher. Has that accelerated in the last 20 years?
    Ms. Taft. Many moved into Lhasa.
    Mr. Rohrabacher. So during the time period when we have had 
this engagement with this regime that was supposed to bring 
about a betterment, an improvement in the human rights 
situation, at least in terms of Tibet, it has had not only the 
opposite impact in terms of human rights, but we have actually 
seen weapons and systems being transported into Tibet. Mr. 
Chairman, just note that if there is any evidence of the abject 
failure of the policy of what they call engagement and which 
many of us see as appeasement to a totalitarian regime, it is 
what has been going on in Tibet, and frankly what your 
testimony is here today verifies that.
    Mr. Gejdenson's point was very well made. I worked during 
the Reagan Administration and there was no talk of providing a 
Most Favored Nation status for Russia during the Reagan 
Administration. We improved the situation in Russia by 
confronting the Communist dictatorship rather than trying to 
say if we could only make them more wealthy and have more 
economic ties they would be more benevolent.
    Mr. Gejdenson. Would the gentleman yield.
    Mr. Rohrabacher. I would.
    Mr. Gejdenson. I would say it has been a bipartisan 
executive failure on China, that the Reagan Administration gave 
China most-favored-Nation status, the Bush Administration and 
yes, this Administration has continued that policy.
    Mr. Rohrabacher. Reclaiming my time, let me note that that 
is true and had there been dramatic improvements in Russia as 
there were during the Reagan Administration in the Chinese 
situation, we would have probably looked toward opening up 
trade relations with Russia but instead the repression 
continued. In China during the Reagan years let me add that 
there was an expansion of democracy which, after Ronald Reagan 
left office, was annihilated at Tiannanmen Square, and I feel 
that there is some, criticism.
    This isn't just aimed at the Administration. Let us face 
this. This policy of kissing the boots of these bloody despots 
in Beijing is not just the policy of Bill Clinton. It is the 
policy of a lot of Republican billionaires who are trying to do 
business and making money off China. That is what this all 
comes down to, and you are doing a great job. You are sincere. 
I appreciate you. You are one of the good people on this 
planet. I wish you success, but I am afraid that there are 
powers that be in this country, and especially in this 
Administration, that are undermining your good efforts, and the 
good efforts of the people on this Committee and elsewhere in 
Congress, that believe some of the fundamentals of this 
country's supposed to be about, which is life, liberty and the 
pursuit of happiness for all human beings, and not just the 
pursuit of profit by a few billionaires in the United States 
and power brokers that do their bidding.
    I agree Tibet is really a bellwether, and the fact that 
things have been going the wrong way in Tibet should suggest to 
us that our policies in dealing with Communist China are wrong. 
In the end, if we ignore the human rights of the people of 
Tibet, we will hurt the security of our own country, and that 
is what we are finding out now.
    So thank you very much.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Ms. Taft.
    Ms. Taft. Thank you for your support of Tibet and what we 
are trying to do. I do think it is really important for us to 
recognize the fact that China wants to come into prominence in 
the world. They sit on the Security Council. They are striving 
to get into the WTO. They are making a lot of efforts to be 
accepted in the international community. I think that sometimes 
they don't understand what we say and they don't understand our 
values. They don't understand how we operate in terms of 
universal values and universal human rights. But the only way 
that they are going to make progress is if we engage them in a 
variety of different ways, if they continue to hear from many 
Americans; if they continue to do work with our businessmen; if 
they continue to have dialogues with their own people; if they 
continue to allow tourists to come in, things will change.
    I was first in China in 1979 and while I can't get in now, 
I have been several times and the country has changed. But we 
have to keep pressuring them and we have to continue showing 
that our values are the human rights values. I must say it was 
very surprising to me we didn't have people lining up to cosign 
our resolution on China this year, and many countries didn't 
want to do it because of the economic interests that they think 
they have.
    Chairman Gilman. Thank you, Ms. Taft.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. Ms. Taft, thank you 
very much for your efforts and your sincerity, but I think we 
have to face cold reality. I would ask everyone in this room 
for just a second to be very quiet, because if we are very 
quiet, we can hear the laughter in Beijing. Let us face it, we 
are here talking about human rights in Tibet and other types of 
Chinese actions toward Taiwan and, of course, their actions 
toward their own people, and yet next month this Congress is 
preparing to absolutely ensure that no matter what Beijing does 
in the human rights area, it will not lose a single penny.
    Of course they will be obligated to listen to resolutions, 
put forward international forums. They will hire diplomats to 
go to play the defensive role in this elaborate ritual where 
they claim to care what resolution is passed, where they work 
to defeat what resolutions they can defeat, and then they can 
laugh at the entire process whether they win or lose this or 
that meaningless battle, because the fact remains they can't 
lose a single penny as long as they get the permanent MFN 
treatment that they are seeking in this Congress next month.
    As my colleagues have pointed out, we never gave MFN upon 
the Soviet Union. We insisted upon calling it MFN and never 
gave it to them, and the Soviet Union and the United States had 
a relationship that was complicated and complex and 
multifaceted and nuclear, and one in which we wanted their 
people to see our businessmen and our ideas, but we never gave 
them MFN.
    Now, for full disclosure in these human rights hearings, I 
do want to point out that I oppose MFN for China mostly because 
I think it is a bad trade deal. I think it ensures that our 
trade deficit with China will continue to be large and will be 
locked in at present levels. But I should point out that we 
lose every bit of real leverage we might ever have in dealing 
with China. We announce to them that no matter what happens, 
all that can ever happen is tough resolutions, signifying 
nothing.
    Now, the only reason for China to seek a compromise with 
the leadership of Tibet is to defuse a potential problem that 
they might have where there could be another blow up. There 
could be another 1959. There could be something reminiscent of 
Czechoslovakia in 1968. There could be a test of their power in 
which they would have to deploy their troops. If they win next 
month, they know that that can't cost them a penny anyway. They 
would have to provide fuel for their soldiers to enter Tibet in 
greater numbers, but they don't stand a risk of losing a single 
penny. So the reason to compromise drifts away and they can 
simply rely on the iron boot to keep Tibet under control, 
should that become necessary.
    What concerns me even more is that under this MFN deal, 
China will be free to use its power over individual companies 
to try to get them to pressure us not to even have hearings 
like this. I know that there will be lobbyists in the offices 
of some of us here saying, we are close to getting a good 
contract with the Chinese, we hate to think that we are going 
to lose it to a company in another part of the United States or 
lose it to the French.
    Mr. Rohrabacher. Will the gentleman yield for one moment?
    Mr. Sherman. Yes.
    Mr. Rohrabacher. Has it been the gentleman's experience 
being in Congress, as it has been my experience, that those 
companies that are engaged in China actually go there to make 
money, and when it comes to influencing policy, they don't try 
to influence the policy there but instead spend their time 
trying to influence the policy here? That's been my experience.
    Mr. Sherman. I don't know what they are doing in Beijing, 
but I do know that they try to influence policy here. What 
concerns me more is giving up the annual review because as long 
as we have the annual review, then China is somewhat limited. 
They can't get outrageous in the pressures they put on American 
companies, but if they have got permanent MFN, they can't 
publish anything in violation of WTO rules, but they can let it 
be known to this or that big company in your district or mine 
that it would be better for the company and better for the 
economics of your part of southern California or mine if we not 
talk like this here. Many of my colleagues have seen this wave 
of multibillion dollar company pressure.
    Those same forces that are in our offices today demanding 
that we give, insisting that we give MFN to China will be in 
our offices tomorrow asking us to shut up because it is bad for 
trade and bad for business. Right now, if they dared to do that 
they would undermine their chances for the annual review, give 
up the annual review, and instead of that pressure being there 
to win the annual review battle or to win the permanent MFN 
battle, that pressure will be here to try to control the 
statements of Members of Congress.
    Mr. Rohrabacher. Just one last request if the gentleman 
would yield.
    Mr. Sherman. Yes.
    Mr. Rohrabacher. That is, I have asked businessmen who have 
come into my office to lobby me on this issue, how many of you 
have spoken to local officials or national officials in China 
where your companies are located about human rights violations? 
I have not met one that has told me that they have spoken out 
about certain business there to the people around their 
company. They could drag, and I understand at times they have 
actually dragged out of some of these corporate locations in 
China, political prisoners or religious prisoners, and just 
dragged them out and the businessmen have not stood up for 
them. Now what is that telling you?
    Mr. Sherman. Reclaiming my time, I think our business 
people are sincere. I think they care about human rights in 
China, but they also care about the lives of their own 
employees, and when faced with the possibility of losing that 
little bit of an export market that we have in China, which I 
think is a little smaller than our market with Belgium, but 
knowing that that could be turned off by a simple oral comment 
by a Chinese Communist commissar, knowing that they are under 
that kind of pressure, I think it is not for lack of 
compassion, but perhaps a compassion for their own employees 
that exceeds their willingness to forego a contract in China. 
So I am not sure that I am quite as negative as my colleague 
from southern California on the motivations, but once we give 
all the cards to the government in Beijing, it will be very 
difficult.
    Right now, if we heard a clear story of a business that was 
about to sign a contract, and then a commissar made a phone 
call and advised the business entity not to make that contract, 
we might do something about it. A few votes might go the other 
way on annual MFN. Once it is permanent, then nothing can 
change it. Whether it is missiles fired in the direction of 
Taipei just a few days before an election, or a crack down in 
Tibet of Czechoslovakia 1968 proportions, or the outrage of 
threatening to take away a contract if the company can't lobby 
more effectively here in Congress for Beijing's position, 
whatever it is, we are going to embolden those who have nothing 
to fear from this Congress should China enter WTO, and should 
the Congress give up annual review. Thank you.
    Chairman Gilman. Thank you, Mr. Sherman. Madam Secretary, 
we thank you for your patience and for sharing your thoughts 
with us. We do hope you are going to stay right on top of all 
of this on our behalf with regard to the Geneva Conference. You 
will continue to be of help with regard to the conference, but 
certainly I am appalled the People's Republic of China is not 
allowing you to sit with them to discuss this matter and denied 
you also the opportunity to meet in China with regard to this. 
We will welcome any further thoughts you may have along the 
way. Don't hesitate. You are going to send us some material and 
make it part of the record. Thank you.
    Ms. Taft. Thank you, and I would like to thank everybody, 
the staff as well as the members, for the support we have 
gotten this past year. It has been great and I look forward to 
working with you. Thank you.
    Chairman Gilman. Thank you again.

  STATEMENT OF LODI G. GYARI, SPECIAL ENVOY, HIS HOLINESS THE 
                           DALAI LAMA

    Chairman Gilman. Now we are pleased to welcome Lodi Gyari, 
the special envoy to His Holiness the Dalai Lama. Lodi Gyari 
was born in eastern Tibet where he received a traditional 
monastic education. He and his family fled from Tibet to India 
in 1959. Lodi Gyari was elected to the assembly of Tibetan's 
people's deputies, the Tibetan parliament in exile and 
subsequently became its Chairman. He then served as Deputy 
Cabinet Minister with his responsibilities to the council for 
religious affairs and for the Department of Health. In 1988, 
Lodi Gyari became Senior Cabinet Minister for the Department of 
Information and International Relations and Foreign Ministry.
    Currently, Lodi Gyari works as a cabinet adviser and is a 
Special Envoy of His Holiness the Dalai Lama. Mr. Gyari is also 
the Executive Chairman of the Board of the International 
Campaign for Tibet, an independent Washington-based human 
rights advocacy group.
    Welcome, Mr. Gyari. You may put your full statement in the 
record and summarize, or whatever you deem appropriate. Please 
proceed.
    Mr. Gyari. Thank you, Mr. Chairman. It is once again a 
great honor for me to be here to testify before your Committee. 
Before I read my statement, I wanted to once again, Mr. 
Chairman, thank you and other Members of this Committee for the 
leadership that you have taken for the cause of the Tibetan 
people, and particularly, Mr. Chairman, yourself and the 
Ranking Member and Mr. Rohrabacher, some of our friends, we 
really greatly appreciate your support.
    I am sorry that Mr. Bereuter could not be here because I 
have always felt that as the chairman of the Subcommittee that 
deals with the particular area where I come from, it is very 
important that I have the opportunity to be able to educate him 
more about the issue of Tibet. I do hope that I will have the 
opportunity in the near future.
    Mr. Chairman, I wanted to make a brief summary of my 
written statement, which unfortunately has become rather 
lengthy because I was trying to unburden my problems in absence 
of any opportunity to discuss them with the Chinese. This 
Committee is more sympathetic. My remarks today I wanted to 
confine generally to the issue concerning the negotiations 
because I think that is the main reason why this hearing was 
called this morning.
    I am afraid I do not really have anything positive to 
report in this regard. His Holiness continues to make every 
effort that he can to reach out to China's leaders, to find a 
negotiated settlement with regard to Tibet. In spite of a 
strong warning by the Chinese Government, he has remained 
consistent not only in his effort but also on his position. I 
had the honor of sending to the Members of the Committee a 
statement that His Holiness has made recently on 10th March, 
where he has very clearly reaffirmed his commitment to find a 
negotiated settlement without seeking total independence.
    In this regard, I wanted to not only thank the leadership 
that Congress has provided but I also wanted to express my 
appreciation to the Clinton Administration. I think in the last 
few years, the President and Vice President, the Secretary of 
State and other senior leaders of the United States have made 
sincere efforts, and particularly I wanted to express my 
gratitude for the support and cooperation that I received from 
the Special Coordinator, Assistant Secretary Julia Taft, and 
also from her very able and very dedicated one single staff 
that she has working on this issue, Kate Friedrich.
    In fact, I sometimes feel that with the tremendous support 
we have here in the Congress and this Committee, that we may 
even dare to ask for legislation to permanently have Ms. Taft 
as the Special Coordinator for Tibet till such time as we can 
have a breakthrough with regard to Tibet.
    Having said that, Mr. Chairman, I want to say that I still 
do believe that the Administration can do more. I appreciate 
efforts that the President has made and the Secretary of State 
continues to make, but sometimes again, it also becomes a bit 
ritualistic. When I say ritualistic, I am not being critical 
because we ourselves, Tibetans, our own approaches become 
ritualistic. For example, every 10th March wherever we are, we 
go out somewhere outside the Chinese Embassy and demonstrate. 
We do it, because we need to do it, but also it becomes kind of 
ritualistic.
    Similarly, I think when senior Administration officials 
take up the matter of Tibet with the Chinese government, 
sometimes it becomes ritualistic because it becomes one of the 
points you have been asked to raise with the Chinese, and then 
you just tick that little box and come back and report to your 
government that you have done your job.
    I do believe that more could be done by this 
Administration, and I do hope that President Clinton in the 
remaining period of his presidency will make a more serious 
effort, because it is a legacy he can leave behind. I have 
always believed that if the U.S. Government combined, both the 
Congress and the Administration, if you really single-handedly 
pursue the matter of Tibet, I cannot believe this cannot 
happen.
    So therefore, I want to urge this approach. I have been in 
touch with the Assistant Secretary Julia Taft, as well as with 
the senior people in the Administration in the next several 
months, a more vigorous effort could be made, and I do hope 
that they will do that.
    Similarly, Mr. Chairman, I think there is also another way 
that both the Congress and the Administration can show your 
support for His Holiness and your commitment. As Assistant 
Secretary Julia Taft mentioned in her remarks that His Holiness 
would be visiting Washington, D.C., sometime at the end of 
June, and early July. That will give both the Congress and this 
Administration another opportunity to clearly demonstrate your 
support and also appreciation of the commitment of His Holiness 
to a nonviolent solution to the issue of Tibet. Such messages, 
I think, are very important.
    I would like to comment on the Human Rights Commission in 
Geneva, which was discussed among yourselves and the Assistant 
Secretary. I was there with the Assistant Secretary last week, 
and I am going to go back there again to make another effort. I 
was very much encouraged by the hard work that was being done 
by a number of senior Administration officials.
    But I still believe that President Clinton himself needs to 
take a much more active role in this effort. When President 
Clinton was in Geneva I was disappointed that he himself did 
not make any public support for this resolution. To be very 
candid, while there is appreciation on the part of the Tibetans 
and others for the lead you have taken, the Assistant Secretary 
will agree with me that there is also cynicism among a lot of 
people in Europe that the effort that's being made by the State 
Department is not really genuine. They say it is, in a way, to 
balance or camouflage the Administration's own effort to give 
China most favored nation trade status permanently.
    I personally do not believe that. I think, and I have seen 
it, that the effort by the Administration is very sincere, and 
I wanted also to express my appreciation to the Secretary of 
State. She herself made a special visit to Geneva in strong 
support of this matter, but in the last few days I certainly 
want to urge more directly and through you that the President 
of the United States himself take a lead in this and to make 
other Europeans join as cosponsors and also make sure that we 
get through the no action as well as the resolution because I 
think an important message needs to be sent.
    Now, specifically Mr. Chairman, I wanted to state here that 
I personally believe if there is a political will in China, a 
solution to Tibet, in my view, is not very difficult. What we 
are seeking, as is not separation, even though the Tibetan 
people have every right as, Mr. Chairman, you have clearly 
indicated. We have been a sovereign independent nation, a 
nation under occupation, but His Holiness, in his infinite 
wisdom, has called for a solution within the framework of 
China. Now, if there's political will, I say a solution is 
possible because China herself, in her Constitution, guarantees 
the Tibetan people autonomy, not only for the Tibetans within 
the Tibetan Autonomous Region (TAR), but for the Tibetans on 
the entire plateau.
    One of the main reasons why I think China cannot make any 
move is she has become enslaved by her leftist policies in 
Tibet. Her policies in Tibet, her pronouncement on Tibet are 
very clearly out of that leftist tendency. It is very much like 
the Cultural Revolution period when it comes to Tibet. Now she 
has to be able to make a departure from that in order to be 
able to have a breakthrough.
    If we don't do that, I am afraid that things in Tibet can 
really get out of hand. I don't say this to intimidate anyone. 
I know because I can feel it. I know because I am a Tibetan, 
because every policy that China carries out is deliberately 
provoking the Tibetans to go in the wrong direction, and I 
believe it will not be too many years before the Tibetans will 
become forced into some other form of a struggle.
    For example, understanding the demise of the Panchen Lama, 
which many Tibetans believe was not a natural death, the recent 
coming into exile of Agya Rinpoche, the recent passing over of 
a very, very important Tibetan religious leader who died 
because he was not given an opportunity to leave China for 
treatment in the United States for cancer, all these things are 
adding on to the bitterness of the Tibetan people.
    In a very personal manner, Mr. Chairman, I lost my father 
last year. He passed away in India, and his passing away has 
also created a tremendous sense of bitterness, not only in my 
heart but in our entire family because his only crime was being 
a Tibetan, being unwilling to be enslaved.
    So every day many Tibetans die in exile without being able 
to go back. Thousands of Tibetans die inside Tibet not having 
the opportunity to see their leader, the Dalai Lama. When 
anything like that happens, every time the bitterness, the 
resentment grows, and I can unfortunately guarantee you that if 
this continues there will be instability on the plateau of 
Tibet, which I think none of us would like to have.
    So therefore, the issue of Tibet is not just a human rights 
issue. It is a issue of great geopolitical importance and, Mr. 
Chairman, yourself, in your opening remarks dealt with that in 
a very analytical manner. So I do hope, and I want to urge this 
Congress in the coming months to take that into consideration, 
study it and also implement policies which will reflect the 
importance of Tibet in its geopolitical dimension.
    Now I am not making an official statement. This is my 
personal view, but if we do not find a solution soon, if China 
continues to say that Tibetans are happy inside Tibet, they are 
content, then most probably the only solution we have is for us 
to ask for a referendum. If the Chinese are really convinced 
that people are happy inside Tibet, we, on the other hand, feel 
the other way, I think the international community feels the 
other way.
    If the Chinese are really convinced, then I think the best 
way to find out is to have a referendum, freely and fairly, a 
referendum and ask the Tibetan people, are they happy under 
Chinese rule, and if that answer, Mr. Chairman, is yes, I can 
assure you and you know him very well, that His Holiness will 
be the happiest person because he is not fighting for the 
restoration of his power. He, in fact, made it very clear that 
he has no desire to hold any official position.
    So therefore, if we prolong this and I want to make very 
clear, and I do not want to surprise my friend Julia Taft of 
the State Department. This is not an official statement. I am 
not saying that we are now going to insist on a referendum. But 
if the Chinese continue to stonewall, then I do not think the 
only logical way for any sensible person, he will say all 
right, let the Tibetan people speak, let the Tibetans speak if 
they are happy or not happy. That, in my view, may be best 
alternate other than to let the situation get out of hand and 
become a matter of geopolitical instability in that area.
    So these are the remarks that I thought, Mr. Chairman, I 
should make, and I will submit my full text for your record, 
and I have also, since I think some members have expressed some 
interest about what had happened in Brussels at this meeting of 
some members of parliament from 16 countries where they have 
passed a resolution as a result of that meeting, I also have 
those documents, which I will also submit with my testimony for 
your record.
    Chairman Gilman. Thank you, Mr. Gyari. Without objection, 
your full statement and any supplementary document will be made 
part of the record. We thank you for taking the time.
    [The prepared statement of Mr. Gyari appears in the 
appendix.]
    Chairman Gilman. Before proceeding with questions, we are 
very pleased to be joined today by a delegation of legislators 
and policymakers from Taiwan. Recently, the citizens of Taiwan 
stood up to Beijing and voted the way that they wanted to and 
elected the people and party that they believe will truly 
represent them. We welcome our Taiwan legislators to Washington 
and to our Committee. Thank you.
    Mr. Gyari, a couple of questions and then I will turn to 
Mr. Rohrabacher. What restrictions, if any, have the People's 
Republic of China put on any negotiations with Tibet?
    Mr. Gyari. Mr. Chairman, since 1998, in 1998 as Assistant 
Secretary also stated in her testimony, that we really felt 
that for the first time there may be some possibility of a 
breakthrough, but which was very short-lived. In fact, the 
public statement that was made in presence of President Clinton 
by President Jiang was both the beginning and end of that 
process, and ever since they have been stonewalling every 
effort, and there is no formal, no informal, and sometimes when 
the Chinese make statement as if indicating that there are some 
channels which is absolutely ridiculous, because I know, 
because I happen to be entrusted by His Holiness as the lead 
person in this regard. So unfortunately, Mr. Chairman, the 
brief answer is that there is no time of any nature at the 
moment.
    Chairman Gilman. Mr. Gyari, what can the Administration do 
to help facilitate any possible negotiations?
    Mr. Gyari. As I said earlier, I think the Administration, 
in particular, Assistant Secretary Julia Taft is working very 
hard, but unfortunately, as she had indicated, she does not 
herself have any access to Chinese Government, and I was very 
encouraged to hear your remarks that your Committee will 
support her effort. I think there has been efforts by this 
Administration, but as I said in my earlier remark, I do 
believe, Mr. Chairman, the Administration, particularly at the 
level of President, a more vigorous effort could be made, and I 
had taken the opportunity to share some of the ways how I feel 
it could be done with senior people at the embassy, as well as 
with Assistant Secretary Julia Taft.
    Chairman Gilman. I am sure they can be of some help. Mr. 
Gyari, what is the government of Tibet willing to accept from 
Beijing at this point?
    Mr. Gyari. Mr. Chairman, the Tibetan people, every one of 
us desires complete and total independence. Who isn't there? 
Any sensible human being, I think, would like to be completely 
free of any occupation in this day and age. We are now in the 
21st century. However, our leader is deeply respected and 
admired, who is a friend of yours, and he, as you know, in his 
wisdom for the long-term interest of the Tibetans and Chinese, 
have opted for a solution within the framework of PRC. If the 
Tibetan people are given a legitimate right to preserve their 
distinctive way of life, that we are able to maintain our 
cultural and religious heritage.
    So, Mr. Chairman, in a nutshell, we are willing to find a 
solution without seeking total political independence.
    Chairman Gilman. Where would the Tibetan negotiators be 
willing to meet with the Chinese?
    Mr. Gyari. Mr. Chairman, we have indicated to the Chinese 
time and again that we are willing to meet at any time at any 
place. We have made it very clear that it will be 
unconditional. Even through the very recent past, through 
mutual friends, I have again, once again, conveyed that at any 
time, right in the middle of the night, right in the middle of 
the ocean, if it is feasible we will be willing to go and meet 
with them and talk with them at any level provided that person, 
he or she, is the fully authorized person from the Chinese 
government.
    Chairman Gilman. It sounds like the Tibetans are willing to 
go to any length to have a negotiation.
    Mr. Gyari. That is right, sir.
    Chairman Gilman. Has the State Department or other 
officials approached you or other members in the Tibetan 
government in exile to discuss negotiations with the government 
of the People's Republic of China? Has the Administration come 
forward and said we would like to work on this with you?
    Mr. Gyari. I think the Clinton Administration, Mr. 
Chairman, I think is very committed, I think is very sincere in 
helping us find a negotiated settlement. As I said earlier, I 
do believe that more could be done. It is not a criticism, but 
I do hope and with your help, again, to urge this 
Administration to be more vigorous in the next 3 months.
    Chairman Gilman. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for your leadership, in this issue and on the issues 
of human rights. I don't know what we would do without Chairman 
Gilman. He has got a good heart and he is thinking about people 
who are being oppressed in different countries, and that has 
given this Congress and the United States some leverage to do 
some things that we couldn't do if we didn't have such a good-
hearted person at the head of this Committee.
    Thank you, Mr. Gilman.
    I would like to ask a little bit about what has been going 
on in Tibet. What is the population of Tibet today?
    Mr. Gyari. Congressman, it is very difficult to get exact 
figure, but our belief is that there is today, on the whole of 
Tibet, about 6 million Tibetans, give and take, a few hundred 
thousand on the whole of Tibet, about 6 million Tibetans.
    Mr. Rohrabacher. They have moved in how many Han Chinese 
now?
    Mr. Gyari. Again, it is very difficult to get precise 
figure, but our estimate, which I believe is fairly correct, is 
there is about 7 million Chinese on the plateau of Tibet. So 
talking about the whole of Tibet, Chinese unfortunately already 
outnumber us in our homeland.
    Mr. Rohrabacher. So unfortunately a referendum that 
included everyone living there would not yield the kind of 
results you want.
    Mr. Gyari. Yes. Obviously, Congressman, when I talked 
about, referendum, if ever such a referendum need to take 
place, it has to be very clear it has to be for the people who 
are of Tibetan origin, because the whole idea is to ascertain 
whether the Tibetans are happy or unhappy. So therefore, if the 
Chinese is also allowed to participate, then I think the whole 
exercise would be meaningless.
    Mr. Rohrabacher. We have some friends here from Taiwan who 
struggled long and hard for democracy in their own part of 
China, and there was a big fight, of course. The Chinese 
Communists are insisting from Beijing that Taiwan admit that it 
is part of China, and under their control, and actually would 
like to have them under their control, but if Beijing itself is 
more democratic, if there was actually a government in Beijing 
like we have in Taipei, which is a freely elected regime 
government that respects people's human rights, the actual, let 
us say, the desire or the demand for independence in Tibet 
would probably not be as great, probably people might be 
willing to, if it was a freer society, people of Tibet might 
not feel so compelled to pull away, isn't that correct?
    Mr. Gyari. Yes, Congressman, I do agree with your 
sentiments. In fact, I remember His Holiness making some 
remarks a few years back that when the Chinese Government 
accused His Holiness of being a splittist, His Holiness, in a 
very humorous way, that the real splittists are the leaders in 
Beijing themselves, because if they had the policy which was 
one that takes into account the best interests of all the 
people that live within the confines of PRC today, then most 
probably the urge for the Tibetan people and others to get rid 
of the yolk of Chinese occupation would be much less. So 
certainly, Congressman, China, if it were more democratic, I 
think is going to be a long way, but even if China respects the 
rule of law will definitely be far better for all of us.
    In fact, I think even for the American business people that 
you and one of your colleagues this morning talked about, I 
always tell them that look here, because some of your business 
people in this country should look at issues like Tibet as 
obstacles and unfortunately looks at people like me as 
unwelcome friend, because they feel I am an obstacle to their 
profit, their relation with China, but I always tell them that 
we can be allies because even for them, even for the business 
people, even for the Tibetans to live with the dignity, we need 
to have a China that respects rule of law. China that is 
governed, not by the whim and wish of a few Communist leaders, 
but a China that is governed by rule of law.
    Mr. Rohrabacher. Whether it is Tibet or whether it is 
Taiwan, there would be a great dissipating of this tension and 
potential conflict if there was a greater degree of freedom on 
the mainland of China and democracy. That is just so evident. 
We found that, by the way, there is a greater degree of freedom 
in Eastern Europe in what was the Soviet Union. There is less 
of a chance for conflict now in terms of the United States and 
fighting with its neighbors. Has there been the introduction of 
new weapons systems that you know into Tibet by the Beijing 
regime?
    Mr. Gyari. Congressman, I am not trying to dodge your 
question. I certainly do believe that there are very sensitive 
and very highly advanced military installations on the plateau 
of Tibet. In fact, one of the many reasons why Jiang's China 
immediately after proclaiming the PRC invaded and occupied 
Tibet is for military and geopolitical reasons. So therefore, 
you see it is quite obvious. I think even a person with 
elementary knowledge of military and politics would agree. But 
precisely as to where and how many is not an area that I am an 
expert, but I do certainly know that there are a number of 
areas on the plateau of Tibet which are highly sensitive 
military installations that the Chinese Government has 
installed in the last many decades.
    Mr. Rohrabacher. Mr. Hu Chang Tau, I think is how you 
pronounce his name, was one time the Chinese overlord of Tibet 
and since moved on to Beijing where he is now looked at as 
perhaps a successor to Jiang Zemin. Was he a benevolent soul 
when he was in charge of your area of country?
    Mr. Gyari. I don't think we have ever had any benevolent 
soul. They have all been ruthless, and Mr. Hu Chang Tau, 
Congressman, remember, came to Tibet at a time soon after the 
demonstrations that had happened in Tibet. He came because the 
then-Party Secretary, which was, for the first time, China 
sent, a minority, a Hui minority as party Secretary, and the 
Chinese leadership felt that since he himself was a minority, 
he was very soft with regard to Tibet. He was one of the party 
secretaries who will wear Tibetan dress, who will encourage 
some of the Chinese to speak Tibetan.
    So Hu Chang Tau came to replace him. So obviously, the 
reason why they sent him there was not to be soft on Tibet, but 
to be much tougher on Tibet, but he himself has spent very 
little time, even when he was party secretary for Tibet, he 
spent most of the time in Beijing because by then, he was 
already being groomed for important responsibilities.
    For the last many years he has been very silent on Tibet. 
Precisely I think he is being designated, as you have rightly 
said, as the future leader. So therefore, most probably, I 
think he may want to very deliberately stay away from sensitive 
issues such as Tibet. We haven't really heard much 
pronouncements from him with regard to Tibet publicly, but he 
has not, like any other Chinese leader, he hasn't been a friend 
when he was in Tibet. He was ruthless but was much more subtle. 
His ruthlessness was a much more subtle way.
    Mr. Rohrabacher. Thank you for your testimony today and 
thank you again, Mr. Chairman, for your leadership.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Thank you for 
your kind remarks.
    Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. Thank you for all 
your leadership in terms of human rights throughout the world 
and for holding this hearing today. This is my first time back 
in the room with all these new accoutrements and I am amazed at 
how high-tech we have become.
    Mr. Gyari, thank you for your testimony. I am sorry I was 
unable to hear your full testimony, but I have it in writing 
and I will review it later. I just have a couple of questions 
for you. I am concerned about the lack of religious freedom in 
China. It is probably the main reason for my opposition to 
PNTR, permanent normal trade relations, with the People's 
Republic of China. How many political prisoners are there in 
Tibet, or should I say, how many political prisoners of Tibetan 
origin are there in China, do you know?
    Mr. Gyari. Yes, Congressman, we do have a figure, and that 
figure, I have no doubt, does not include everyone, because 
first of all, when I talk about Tibet, I am talking about the 
real Tibet, the historical Tibet, which is far more than the 
Tibet that Chinese talk about, because they are talking about 
the Tibet autonomous region which is less than half in terms of 
operation and area. So on the whole plateau of Tibet, I think 
the number of prisoners, especially political prisoners, can 
run into thousands. I know the exile government has compiled a 
list of prisoners and also a London based non-government group 
Tibet Information Network has also compiled a long form, I 
think, of about 600 political prisoners. This is a very well-
documented figure of prisoners.
    Mr. Crowley. This may also have been brought up before, 
forgive me if it has, but back in May 1998, after a visit by 
the EU to a prison, about 10 political prisoners were executed. 
Do you believe that our government has been outspoken enough on 
this issue?
    Mr. Gyari. I think there has been ups and downs, I think. 
There has been times, I think, the Administration has been 
forthright. There has been times I think it has dragged its 
feet. So to summarize, I think this has not been consistent. I 
think there has been some inconsistency. I think that's one 
weakness of your China policies, not only with regard to Tibet. 
I believe that the United States policy toward China on a 
number of things has always tended to be inconsistent, and I 
think the Chinese have always taken full advantage of, be it 
trade, be it on human rights, be it on any number of bilateral 
relations.
    Mr. Crowley. How many Buddhist monks and nuns have been 
imprisoned?
    Mr. Gyari. The number, it could go into thousands. For 
example, just 3 months back, an area where I come from, I come 
from eastern part of Tibet, there for example within a period 
of 3 months, they have rounded up several hundreds of monks, 
but then sometimes they round them up for a few days, 3 weeks, 
3 months, then they release them or sometimes they keep them 
without any trial for months together. In fact, in my area they 
have rounded up a very learned scholar a few months back, and I 
have learned about his activities because he studied in my 
monastery, and in fact, I have footages of the video that he 
has sent to me, and his only crime is that he was going out 
teaching Buddhism.
    As part of that, he was showing reverence to His Holiness, 
the Dalai Lama. For that he was arrested, imprisoned and 
tortured. So this goes on throughout Tibet. In fact, I think 
separation against religious freedom has been so vigorous in 
the last few years, and I think Chinese are actually very much 
afraid of not only Buddhism, I think they really in nightmare. 
I think the Chinese leaders in Beijing live in nightmare 
because they have seen that it is the belief, the faith of 
people, even in Eastern Europe and Russia, that finally brought 
about the ruination of the Communist world. So I think that 
they live in fear of religion.
    Mr. Crowley. Are you saying that torture and death are 
consequences forced by a Buddhist monk who fails to sign on to 
a document that calls for the reunification of Tibet and China 
and calls for the recognition of the Panchen Lama and the 
rejection of the Dalai Lama?
    Mr. Gyari. Yes. One of the main reasons why the Chinese 
Government arrest and imprisoned and tortured religious leaders 
is when they refuse to denounce His Holiness, when they refuse 
to accept the Chinese-appointed Panchen as their true Panchen, 
these are reasons, these are the grounds under which they are 
imprisoned and tortured, and for the Tibetans, this is a very 
part of their basic belief.
    Mr. Crowley. Thank you, Mr. Gyari. Let me, once again, 
thank the Chairman for holding this hearing. Please give our 
regards to the Dalai Lama.
    Mr. Gyari. Thank you, sir.
    Chairman Gilman. Mr. Gyari, did you say there are well over 
600 prisoners still incarcerated----
    Mr. Gyari. Yes, sir.
    Chairman Gilman [continuing]. By the Chinese?
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, and I will be very 
brief. I do appreciate the Chairman holding this important 
hearing and we thank Mr. Gyari for his testimony here today, 
which I will review. I apologize for being absent during most 
of the meeting. We had markup going on in one of the other 
Committees that I am a member of, but human rights and the 
tragedy of Tibet and the treatment by China is something that 
is very important to this Committee, and I know very important 
to Chairman Gilman in particular. We intend to continue to 
follow this very closely, and our relations with China, the 
success or failure of that relationship, will be reflected in 
part with how they have treated Tibet, and how they will 
continue to treat Tibet. We know that Tibet will one day be 
free, hopefully sooner rather than later. There have been many 
lives that have suffered through this terrible ordeal with 
respect to China. We want to, again, thank you for being here 
today, and as I said, I will review your testimony. Thank you.
    Chairman Gilman. Thank you, Mr. Chabot. Mr. Gyari, please 
extend our very best wishes to His Holiness. We look forward to 
his visit at the end of June. We will try to work on a joint 
session. Hopefully with Ms. Taft's assistance, we may be able 
to convince the Administration that that would be a good idea. 
I am pleased you are able to work very closely with Secretary 
Taft, who has been doing an outstanding job for us. We wish you 
a safe trip. You have been traveling all over the world. May 
you continue to travel in safety with our best wishes. 
Committee stands adjourned.
    [Whereupon, at 12 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 6, 2000

=======================================================================


    [GRAPHIC] [TIFF OMITTED] T6615.001
    
    [GRAPHIC] [TIFF OMITTED] T6615.002
    
    [GRAPHIC] [TIFF OMITTED] T6615.003
    
    [GRAPHIC] [TIFF OMITTED] T6615.004
    
    [GRAPHIC] [TIFF OMITTED] T6615.005
    
    [GRAPHIC] [TIFF OMITTED] T6615.006
    
    [GRAPHIC] [TIFF OMITTED] T6615.007
    
    [GRAPHIC] [TIFF OMITTED] T6615.008
    
    [GRAPHIC] [TIFF OMITTED] T6615.009
    
    [GRAPHIC] [TIFF OMITTED] T6615.010
    
    [GRAPHIC] [TIFF OMITTED] T6615.011
    
    [GRAPHIC] [TIFF OMITTED] T6615.012
    
    [GRAPHIC] [TIFF OMITTED] T6615.013
    
    [GRAPHIC] [TIFF OMITTED] T6615.014
    
    [GRAPHIC] [TIFF OMITTED] T6615.015
    
    [GRAPHIC] [TIFF OMITTED] T6615.016
    
    [GRAPHIC] [TIFF OMITTED] T6615.017
    
    [GRAPHIC] [TIFF OMITTED] T6615.018
    
    [GRAPHIC] [TIFF OMITTED] T6615.019
    
    [GRAPHIC] [TIFF OMITTED] T6615.020
    
    [GRAPHIC] [TIFF OMITTED] T6615.021
    
    [GRAPHIC] [TIFF OMITTED] T6615.022
    
    [GRAPHIC] [TIFF OMITTED] T6615.023
    
    [GRAPHIC] [TIFF OMITTED] T6615.024
    
    [GRAPHIC] [TIFF OMITTED] T6615.025
    
    [GRAPHIC] [TIFF OMITTED] T6615.026
    
    [GRAPHIC] [TIFF OMITTED] T6615.027
    
    [GRAPHIC] [TIFF OMITTED] T6615.028
    
    [GRAPHIC] [TIFF OMITTED] T6615.029
    
    [GRAPHIC] [TIFF OMITTED] T6615.030
    
    [GRAPHIC] [TIFF OMITTED] T6615.031
    
    [GRAPHIC] [TIFF OMITTED] T6615.032
    
    [GRAPHIC] [TIFF OMITTED] T6615.033
    
    [GRAPHIC] [TIFF OMITTED] T6615.034
    
    [GRAPHIC] [TIFF OMITTED] T6615.035
    
    [GRAPHIC] [TIFF OMITTED] T6615.036
    
    [GRAPHIC] [TIFF OMITTED] T6615.037
    
    [GRAPHIC] [TIFF OMITTED] T6615.038
    
    [GRAPHIC] [TIFF OMITTED] T6615.039
    
    [GRAPHIC] [TIFF OMITTED] T6615.040
    
    [GRAPHIC] [TIFF OMITTED] T6615.041
    
    [GRAPHIC] [TIFF OMITTED] T6615.042
    
    [GRAPHIC] [TIFF OMITTED] T6615.043
    
    [GRAPHIC] [TIFF OMITTED] T6615.044
    
    [GRAPHIC] [TIFF OMITTED] T6615.045
    
    [GRAPHIC] [TIFF OMITTED] T6615.046
    
    [GRAPHIC] [TIFF OMITTED] T6615.047
    
    [GRAPHIC] [TIFF OMITTED] T6615.048
    
    [GRAPHIC] [TIFF OMITTED] T6615.049
    
    [GRAPHIC] [TIFF OMITTED] T6615.050
    
    [GRAPHIC] [TIFF OMITTED] T6615.051
    
    [GRAPHIC] [TIFF OMITTED] T6615.052
    
    [GRAPHIC] [TIFF OMITTED] T6615.053
    
    [GRAPHIC] [TIFF OMITTED] T6615.054
    
    [GRAPHIC] [TIFF OMITTED] T6615.055
    

</pre></body></html>
